                                                                            Office ofInspector General

                                                                            U.S. Department of Homeland Security
                                                                            WaShington, DC 20528




                                                                             Homeland
                                                                             Security
                                             AUG 2 6 2Q11
MEMORANDUM FOR:                        Major P. (Phil) May
                                       Regional Administrator, Region IV
                                       Federal Emergency Management Agency

FROM:                                  Matt Jadacki     iI.ltD· ~.
                                       Assistant Ins;~~
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to
                                        GulfCoast Community Action Agency, GulfPort, Mississippi
                                       FIPS Code OOO-UGBSS-OO
                                       FEMA Disaster Number 1604-DR-MS
                                       Report Number DA-11-23

We audited public assistance grant funds awarded to the Gulf Coast Community Action
Agency (Agency) in Gulfport, Mississippi. Our audit objective was to determine whether the
Agency accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to federal regulations and FEMA guidelines.

As of January 6, 2011, the Agency had received a public assistance award of$5.6 million from
the Mississippi Emergency Management Agency (MEMA), a FEMA grantee, for damages as
a result of Hurricane Katrina, which occurred in August 2005. The award provided 100%
FEMA funding for debris removal and repair/replacement of buildings and equipment
damaged as a result of the disaster. The award included 15 large and 6 small projects. l

Our audit focused on $5.6 million awarded under the 15 large projects. The audit covered
the period from August 29,2005, to January 6, 2011, during which the Agency claimed
$3.3 million under the 15 large projects (see Exhibit, Schedule of Projects Audited). At the
time of our audit, the Agency had completed work on all projects, but had not submitted a
final claim to MEMA on project expenditures.

We conducted this performance audit pursuant to the Inspector General Act of1978, as
amended, and according to generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based upon our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings


I   Federal regulations in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
and conclusions based upon our audit objective. We conducted this audit according to the
statutes, regulations, and FEMA policies and guidelines in effect at the time of the disaster.

We reviewed judgmentally selected samples of project costs (generally based on dollar
value); interviewed Agency, MEMA, and FEMA personnel; reviewed the Agency’s
procurement policies and procedures; reviewed applicable federal regulations and FEMA
guidelines; and performed other procedures considered necessary under the circumstances to
accomplish our audit objective. We did not assess the adequacy of the Agency’s internal
controls applicable to grant activities because it was not necessary to accomplish our audit
objective. We did, however, gain an understanding of the Agency’s method of accounting
for disaster-related costs and its policies and procedures for administering activities provided
for under the FEMA award.


                                      BACKGROUND

The Gulf Coast Community Action Agency is a private nonprofit organization, organized in
1965. The Agency is responsible for the administration of social service programs. It
provides a wide range of community-based services, including low-income home energy
assistance and Head Start programs, throughout the Mississippi Gulf Coast.


                                   RESULTS OF AUDIT

The Agency did not account for project expenditures on a project-by-project basis, as
required by federal regulations and FEMA guidelines. Also, the Agency did not always
comply with FEMA guidelines and federal regulations when procuring services under the
award. Finally, we identified $2.3 million of unneeded project funding that FEMA should
deobligate and put to better use; and we question $2.7 million of duplicate benefits.

Finding A: Project Accounting

According to 2 CFR 215.21(b)(2), grant recipients shall maintain accounting records that
identify adequately the source and application of funds for federally sponsored activities.
Further, 44 CFR 206.205(b)(1) requires that large project expenditures be accounted for on a
project-by-project basis. The Agency’s large project worksheets (PWs) described damages
related to specific buildings. However, the Agency did not separately account for
expenditures and receipts for each building or PW. Instead, the Agency created one general
ledger account to record all disaster-related expenditures and receipts. Using this account,
we were able to identify reimbursements received from MEMA for each project, but we
could not readily identify individual project expenditures because they were listed by vendor
name and not by the buildings or PWs.

Agency officials did not concur with this finding. They believed that the accounting system
adequately identified receipts and expenditures by project. However, we disagree. We had
to obtain and review additional information to identify the facility or PW to which the



                                               2


expenditures applied because they were all commingled in the same account without a
unique identifier such as a project or cost center number.

Finding B: Procurement Procedures

The Agency did not openly compete $273,137 of contracted architectural and engineering
(A&E) services under Project 11134 for permanent construction work (A.E. Perkins facility)
that began approximately 1 year after the disaster. Instead, the Agency used a firm with
which it had an existing relationship under a pre-Katrina contract to perform the services.
Federal regulation 2 CFR 215.43 requires all procurement transactions to be conducted in a
manner to provide, to the maximum extent practical, open and free competition. The
Agency’s board meeting notes from September 2006 indicated that there were no other
architectural firms that were operational or that could handle the size of the rebuilding
project. However, the procurement files contained no documentation to indicate how the
Agency reached such a decision.

We determined the A&E costs were reasonable based on FEMA guidance on A&E services
for construction projects (Public Assistance Guide, FEMA 322, October 1999, p. 78).
However, federal procurement regulations require open and free competition to the extent
practicable not only to achieve a reasonable cost, but also to allow all qualified, responsible
parties an equal chance to compete for the work.

Finding C: Funds Not Needed

Grantees are required to make an accounting of eligible costs for each approved large project
as soon as practicable after the subgrantee has completed the approved work and requested
payment (44 CFR 206.205(b)(1)). During our review, we identified $2,293,832 of FEMA
funding obligated under 13 PWs that was no longer needed because of grant funding received
from the U.S. Department of Health and Human Services (see finding D) and insurance
proceeds. Therefore, FEMA should deobligate the $2.3 million of unneeded funds and put
them to better use. The specific projects and related unneeded funding are identified in the
Exhibit, Schedule of Projects Audited.

Finding D: Duplicate Benefits

Section 312 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act, as
amended, states that FEMA funds cannot be used for expenditures recoverable from another
federal program, insurance, or any other source. In July 2006, the Agency received a
$16.6 million grant from the U.S. Department of Health and Human Services (HHS) for the
repair of six Head Start facilities damaged as result of Hurricane Katrina. The scope of work
for the HHS grant included demolition costs, building repairs, equipment replacement, site
construction, and replacement of educational supplies. However, the Agency also received
$2,724,633 of FEMA funding for facility damages covered by the HHS grant. We question
the $2,724,633 of duplicate benefits, as follows:




                                               3

        The Agency claimed $25,796 of FEMA funding under Project 9012 for the
        replacement of contents in the Harry S. Tartt facility. The Agency also requested and
        received $526,150 of HHS grant funds, which covered the costs of replacing the
        contents of the facility. The Agency’s accounting records for October 2006 through
        July 2007 showed that the Agency initially charged facility costs, including contents,
        to the HHS grant. However, in March 2008, the Agency reallocated the HHS funding
        to other facilities that had cost overruns and charged $25,796 of contents cost for the
        Harry S. Tartt facility to the FEMA project. We question the $25,796 because FEMA
        funds should not be used to cover costs specifically recoverable from another federal
        program.

        The Agency claimed $24,014 of FEMA funding under Project 9222 for replacement
        of educational supplies at the Turkey Creek facility. However, the claim included an
        invoice for $5,445 for supplies related to Project 9082 (Saucier Facility), for which
        the HHS grant funded damages. We question the $5,445 of duplicate benefits
        because the Agency received HHS funding under Project 9082 to cover the costs of
        supplies erroneously charged to Project 9222.

        MEMA advanced the Agency $18,750 of FEMA funds under Project 9455 for
        demolition costs associated with replacing the Isiah Fredericks facility with new
        double-wide trailers to the same size and function as the damaged facility. The
        Agency also received $65,250 under the HHS grant that covered the demolition costs
        of the facility. We question the $18,750.

        MEMA advanced the Agency $10,750 of FEMA funds under Project 9443 for
        demolition costs associated with replacing the Father McCloone facility2 with new
        double-wide trailers to the same size and function as the damaged facility. The
        Agency also received $73,263 under the HHS grant that covered the demolition costs
        of the facility. We question the $10,750.

        MEMA advanced the Agency $7,250 of FEMA funds under Project 9555 for
        demolition costs associated with the Blanche Saucier facility. The Agency also
        received $7,500 under the HHS grant that covered the demolition costs of the facility.
        We question the $7,250.

        The Agency claimed $3,105,176 under Improved Project 11134 for construction of
        the A. E. Perkins Head Start Center.3 However, the Agency also received HHS grant
        funds totaling $3,846,718 during the period of November 2006 to June 2010 for
        construction of the facility. Construction costs for the A. E. Perkins facility totaled
        $4,295,252, or $448,534 more than the HHS grant provided. Therefore, we question
        $2,656,642 claimed under the project ($3,105,176 less $448,534) as duplicate


2
  The Father McCloone Facility was renamed the Doyle Moffett Facility after the replacement. The Doyle
Moffett Facility was referenced in the HHS grant request and the Agency’s accounting records.
3
  The A.E. Perkins Head Start Center was referenced as D’Iberville in the HHS grant request and the Agency’s
accounting records.


                                                      4

       benefits because HHS provided grant funds specifically for the A.E. Perkins facility
       that covered all but $448,534 of the construction costs for the facility.

       Agency officials did not agree with our finding. They said the original plan was to
       build two buildings on the new A. E. Perkins site; however, wetland issues precluded
       the second building from being included on the site. Therefore, they decided to place
       the second building on the Isiah Fredricks site. Agency officials said that, after they
       received the $2.8 million of FEMA funding, they had additional funds remaining
       from the HHS grant, and HHS directed them to reallocate the funding to the Isiah
       Fredricks site. However, the Agency did not reallocate the HHS grant funds to the
       Isiah Fredricks site. Instead, the Agency actually expensed the $3.8 million of HHS
       grant construction funding to the A. E. Perkins Facility. Therefore, we maintain that
       the FEMA funding was a duplicate benefit because FEMA funds cannot be used for
       expenditures specifically recoverable from another federal program. The Agency
       only reported to HHS that it had excess grant funding because it had improperly
       applied FEMA grant funding to the facility. If the Agency had first applied the
       $3.8 million of HHS grant funding as intended, there would not have been any excess
       grant funding on the facility to report to HHS.


                                 RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

   Recommendation #1: Instruct the Agency to account for large projects on a project-by-
   project basis, as required by federal regulation (finding A).

   Recommendation #2: Instruct the Agency to comply with federal procurement
   regulations when acquiring goods and services under a FEMA award (finding B).

   Recommendation #3: Deobligate and put to better use $2,293,832 ($2,293,832 federal
   share) of unneeded project funding (finding C).

   Recommendation #4: Disallow $2,724,633 ($2,724,633 federal share) of costs
   ineligible for FEMA reimbursement because they were recoverable from another federal
   agency (finding D).


          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with Agency, MEMA, and FEMA officials during our audit.
We also provided a written summary of our findings and recommendations in advance to
these officials and discussed them at the exit conference held on June 16, 2011. Agency
officials’ comments, where appropriate, are included in the body of this report.




                                              5

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of
the recommendation. Until your response is received and evaluated, the recommendations
will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this
report will be posted to our website, with the exception of sensitive information identified by
your office. Significant contributors to this report were David Kimble, Larry Arnold,
Sharonda Toney, and Alicia Lewis.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.

cc:		   Administrator, FEMA
        Audit Liaison, FEMA Mississippi Recovery Office
        Audit Liaison, FEMA Region IV
        Audit Liaison, FEMA (Job Code G-11-014)
        Audit Liaison, DHS




                                               6


                                                                                                         EXHIBIT 

                                     Schedule of Projects Audited


                                August 29, 2005, through January 6, 2011


                                 Gulf Coast Community Action Agency


                                   FEMA Disaster No. 1604-DR-MS



                                                                                      Funds Put to    Questioned
     Project                                                 Amount      Amount        Better Use        Costs
    Number                    Project Scope                  Awarded     Claimed      (Finding C)     (Finding D)
    9012       Harry S. Tartt Facility Contents              $ 25,796    $ 25,796       $         0   $    25,796
    9013       A. E. Perkins Facility Contents                 198,970            0        198,970             0
    9014       D’Iberville Facility Contents                   122,585            0        122,585             0
    9015       Isiah Fredricks Facility Contents               308,982            0        308,982             0
    9082       Saucier Facility Contents                        91,051            0         91,051             0
    9188       Father McCloone Delisle Facility Contents       269,700           $0        269,700             0
    9222       Turkey Creek Center Facility Contents           299,743       24,014        275,729         5,445
    9223       Father Sweeney Facility Contents                180,500            0        180,500             0
    9262       Turkey Creek Facility Contents                   85,563       74,532         11,031             0
    9407       D’Iberville Facility                            103,745       88,995         14,750        88,995
    9443       Father McCloone Facility                        171,682       10,750        160,932        10,750
    9455       Isiah Fredericks Facility                       318,387       18,750        299,637        18,750
    9555       Blanche Saucier Modulars (Site #1)               66,005        7,250         58,755         7,250
    9691       A. E. Perkins Facility                        3,317,391    3,016,181        301,210     2,567,647
    *11134     A. E. Perkins Head Start Center                       0            0              0             0
    Total                                                   $5,560,100   $3,266,268     $2,293,832    $2,724,633




* Project 11134 was an improved project funded through Projects 9407 and 9691. Therefore,
funds are shown on those two projects and not on Project 11134.




                                                           7


